 Office of Inspector General
Corporation for
      IWI-     ON
               MUNITY
               ICE




Semiannual Report To Congress
       April 1, 2011 - September 30, 2011

    Fiscal Year 2011 Semiannual Report No. 2
                                                                                                    Table Of Contents


A Message From Acting Inspector General Kenneth Bach .................................. 1 

Audit Section ............................................................................................................ 3 
      Audit Results ................................................................................................................................ 5 
      Significant Audit Activity ............................................................................................................ 5 
      Audit Outreach Activity ............................................................................................................... 7 
      Draft Management Decisions With Which The OIG Disagreed ............................................... 7 

Investigations Section ............................................................................................. 9 
      Investigative Results ................................................................................................................. 11 
      Significant Cases And Activity ................................................................................................. 11 
      Management Decision With Which the OIG Disagreed .......................................................... 13 

Review Of Legislation And Regulations .............................................................. 15 
      Criminal Background Checks ................................................................................................... 17 

Statistical And Summary Tables .......................................................................... 19 
      I.      Inspector General Act Reporting Requirements ........................................................... 21 
      II.     Audit List ........................................................................................................................... 22 
      III.    Reports With Questioned Costs ..................................................................................... 23 
      IV.     Reports With Recommendations That Funds Be Put To Better Use .......................... 24 
      V.      Summary Of Audits With Overdue Management Decisions ........................................ 25 
      VI.     Reports Described In Prior Semiannual Reports Without Final Action ...................... 25 
      VII.    Peer Reviews .................................................................................................................... 26 
      VIII. Plain Writing Act ............................................................................................................... 26 

Fiscal Year 2011 Performance Information ......................................................... 27 


                               About The Office of Inspector General
In 1993, Congress created the Corporation for National and Community Service (Corporation), along
with this Office of Inspector General (OIG), in the National and Community Service Trust Act (42
U.S.C. §§ 12501-681). Independent of the agency we oversee, and led by a presidential appointee,
the OIG conducts audits and investigations of Corporation programs, including AmeriCorps,
Volunteers in Service to America (VISTA), the National Civilian Community Corps, and Senior Corps.
The OIG also examines Corporation operations, and State community service programs that receive
and distribute the majority of Corporation grant funds. Based on the results of our work, and in
addition to its audit reports and criminal and civil referrals based on our investigations, the OIG
recommends to the Corporation policies to promote economy and efficiency.

This semiannual report, as required by the Inspector General Act of 1978, details our work for the
final six months of Fiscal Year (FY) 2011. It is being transmitted to the Corporation’s Chief Executive
Officer, Board of Directors, and Members of Congress.
                                                   Inspector General’s Message


               A Message From Acting Inspector
                         General Kenneth Bach
October 31, 2011

I am pleased to share with you this Semiannual Report to
Congress, which details the achievements of the Office of
Inspector General (OIG) for the second half of Fiscal Year 2011.

The OIG continued to concentrate on initiatives designed to
have a global, positive impact on the efficiency and
performance of the Corporation for National and Community
Service (Corporation) and its’ grantees. Our Audit Section
issued 14 reports, including 10 grantee audits that identified
more than $604,000 in questioned costs and more than
$275,000 of funds that could be put to better use. Our
Investigative Section opened 23 cases, closed 24 actions,
recovered more than $292,700 and identified more than $2.5
million in potential recoveries of misused federal funds.

In the current economic climate, the Corporation and its’ grantees are simultaneously experiencing
diminished resources and increasing public demand for volunteer opportunities and social services.
The level of our oversight has not diminished during this period; on the contrary, the number of open
investigations has experienced a slight increase. We continue to audit and investigate allegations of
improprieties by grantees who have misused the Corporation grant funds entrusted to their care.

For example, our ongoing audits and investigations continue to identify problems with member
eligibility. The issues range from instances of missing documentation to substantiate if a criminal
background check was conducted and missing documentation to verify the citizenship or legal
residency status of members. Our auditors question all grant costs and education awards involving
ineligible volunteers. But our larger concern is protecting vulnerable program clients and seeing that
the Corporation’s volunteer slots are filled by eligible individuals.

We continue to identify issues with member timesheets, including missing documentation, inaccurate
or incomplete information and inflated service hours, which allow program participants to obtain
education awards and other benefits to which they may not be entitled. Still other grantees are
alleged to have violated Corporation and Federal regulations by using volunteers to supplant grantee
employees.

I am also concerned that the economic downturn may cause Corporation grantees to experience
problems in meeting their required match funds from non-government sources or to close down. This
raises issues about the status of unspent grant funds, which may prove hard to recover if the grantee
has declared bankruptcy or ceases to exist. I encourage the Corporation to remain highly aware of
grantee economic stress.

The Senator Edward M. Kennedy Serve America Act of 2009 had a significant impact on the
Corporation, including provisions that expanded the list of prohibited activities for service participants.
Following several reported instances of members engaging in prohibited activity, the Corporation
quickly responded by developing a proactive “Action Plan.” Under this plan, the Corporation has
begun quarterly screening of members to identify those who may be performing prohibited activities.
If violations are identified, corrective actions are implemented as needed for members and grantees.
The agency is also working with its’ grantee community to raise awareness of this issue. I fully
support the Corporation’s concerted effort in this area. We will be reviewing the “Action Plan” and


April 1, 2010 – September 30, 2010                                                                   1
Inspector General's Message

 Corporation's progress, provide recommendations as necessary, and report our results in a
 subsequent Semiannual Report to Congress.

 We continue to work with Corporation management to raise awareness of these issues and provide
 both audit and investigative recommendations as appropriate.          Tough times call for tough
 enforcement, along with more targeted and effective use of our limited resources. But I am proud to
 report that my staff and I have proven equal to-and focused on-the challenge of protecting the
 nation's investment in National Service.




 2                                                    April 1, 2011 - September 30,2011
                                                 Audit Section
                  The Office of Inspector General Audit Section is
                  responsible for reviewing the financial, administrative,
                  and programmatic operations of the Corporation for
                  National and Community Service. The Audit Section’s
                  responsibilities include auditing the Corporation’s
                  annual     financial   statements,     assessing     the
                  Corporation’s management controls, reviewing the
                  Corporation’s operations, and auditing individual grants,
                  contracts, and cooperative agreements funded by the
                  Corporation.    All OIG audit reports are issued to
                  Corporation management for its action or information.




April 1, 2011 – September 30, 2011                                    3
                                                                                Audit Section


Audit Results
 During this reporting period, the OIG Audit Section issued 14 reports, as listed on page 22. Our
 efforts also included the following reviews designed to improve overall Corporation operations:

        Initiating an audit of National Service Trust Payments to financial and educational institutions;
        Completing a VISTA grant audit of American Recovery and Reinvestment Act of 2009
         (ARRA) funding that included recommendations to improve internal Corporation award
         activities; and
        Initiating an evaluation of the Corporation's oversight and resolution of OMB A-133 Reports.

 The 10 grantee agreed-upon procedures/audits issued during this period, which included
 Corporation's National Direct grantees, State commissions, and a VISTA grantee, questioned more
 than $604,000 in claimed costs and recommended that approximately $275,000 in funds that can be
 put to better use. There were 12 audits in process at the end of this reporting period.

 The Audit Section implemented AutoAudit 5.6, an electronic auditing software application that will
 strengthen our documentation capabilities and enhance productivity. All audit and evaluation
 engagements conducted by OIG auditors are performed, documented, and retained in AutoAudit.
 Engagement files are now located in one central location that allows auditors to locate and review
 completed engagements in a more efficient and organized manner. AutoAudit's new functionalities,
 including electronic routing of workpapers and review comments, hyperlinking audit evidence and
 workpapers, and electronic approvals, will enhance our efforts to better effectively track audit
 progress and report findings.

Significant Audit Activity
 Audit of Corporation for National and Community Service Grants Awarded to the New York
 City Office of the Mayor

 The OIG conducted an audit of VISTA and AmeriCorps grants awarded to the New York City Office of
 the Mayor (NYC Mayor’s Office). The audit, which primarily focused on the VISTA award funded
 under ARRA, questioned about $100,000 in education awards and living allowance payments. The
 auditors also identified several areas of concern in the administration of VISTA resources.

 The auditors expressed concerns relating to the appearance of undue influence exerted by
 Corporation senior management and a former member of the Corporation Board of Directors in the
 review and award process of the VISTA resources to the NYC Mayor’s Office.

 Upon reviewing the OIG’s preliminary draft report, the Corporation proactively and swiftly
 implemented a pivotal OIG recommendation that Board of Directors bylaws be amended to preclude
 Board members from influencing operational decisions for grants that are currently under review by
 Corporation staff. The amended bylaws also include a ban on ex parte communications.

 The auditors further found that some VISTA members were underutilized and poorly managed by
 some of the host site organizations. The audit identified instances in which host site organizations
 were in violation of VISTA regulations, including engaging VISTA members in direct service,
 supervisors who had not attended mandatory orientation, and VISTA members engaging in activities
 that were not compatible with the program’s anti-poverty objectives.

 We also provided several recommendations that would enhance transparency and the integrity of the
 Corporation’s VISTA and grants review and award process, and called for the creation of a proactive
 means by which VISTA members can communicate their concerns or report their assignment by
 sponsors to alleged prohibited services.



 April 1, 2011 – September 30, 2011                                                                 5
Audit Section

 OIG Evaluation of the 2010 Social Innovation Fund (SIF) Grant Application Review Process
 (GARP)

 We conducted an evaluation of the Corporation’s inaugural SIF grant award process in response to
 requests from Congress and the Corporation.

 The SIF was created in 2009 under the Edward M. Kennedy Serve America Act. The fund, with an
 initial appropriation of $50 million, was designed to provide a combination of Federal grants and
 private capital to address three primary challenges facing the country: Economic opportunity, healthy
 futures, and youth development and school support. SIF grantees must generate cash matching
 funds amounting to $3 for every $1 in Federal grant money. Eleven grantees were selected for
 funding in the 2010 competition.

 We generally found that the SIF policies and procedures were applied by the Corporation in a fair and
 objective manner during the GARP process. The Corporation deviated slightly from its existing grant
 application and review procedures, but we determined these deviations occurred because the SIF
 program was new and, in management’s judgment, warranted slightly different procedures from those
 used in selecting grantees for more established service programs.

 For example, the Corporation engaged a number of experienced external peer reviewers with
 extensive SIF backgrounds to evaluate the merits of each grant application. This process required
 each reviewer to fully disclose any conflicts of interest that might have impacted their decision to
 recommend a particular applicant for a SIF award. However, we found that the Corporation did not
 have a formal policy to guide staff in evaluating and resolving such conflicts, and we made a
 recommendation accordingly.

 In evaluating each phase of the award process, we determined that final funding decisions were not
 fully documented, and the Corporation did not have a formal policy setting forth the type or extent of
 that documentation. We recommended the Corporation develop such a policy to ensure that its
 award decisions are completely supported through each step of the process. The Corporation
 generally concurred with our recommendations and, just prior to the end of our review, it issued a
 policy statement to increase transparency in the GARP process. This statement outlined the roles
 and responsibilities of reviewers, and established a list of publicly available documents for future
 grant competitions.

 Agreed-Upon Procedures for Corporation for National and Community Service Grants
 Awarded to Serve Guam! Commission

 The OIG’s review of the Serve Guam! Commission (Commission) completed a series of three Pacific
 Rim grantee reviews (also including the American Samoa Special Services Commission and the
 Commonwealth of Mariana Islands Public School System) that were designed to test the grantees’
 internal accounting controls and compliance with Federal laws and AmeriCorps requirements. The
 Guam review focused on recent Corporation grants to the Commission and three of its subgrantees,
 totaling approximately $8.6 million. We identified $71,847 in questioned Federal costs out of $3.7
 million in total costs claimed during the review period. We also questioned more than $40,000 in
 education awards.

 We concluded that the Commission had mismanaged its AmeriCorps grants. Specifically, the
 Commission and its subgrantees charged costs that were not recorded in the respective accounting
 systems and were not allocable to the AmeriCorps program, misidentified consultant fees as living
 allowance costs, and had member timesheets with numerous discrepancies which were not properly
 recorded in the Corporation’s member recordkeeping system. In addition, we found that one
 subgrantee did not follow AmeriCorps and Internal Revenue Service (IRS) requirements for
 withholding and remitting Social Security and Medicare taxes for member living allowance payments.
 This situation was due to the Commission’s misinterpretation of rulings obtained from the Guam
 Department of Revenue and Taxation and the IRS. As a result, the Commission may be liable for
 approximately $110,000 in unpaid taxes.


 6                                                     April 1, 2011 – September 30, 2011
                                                                               Audit Section

 An additional finding involved at least one AmeriCorps member at a subgrantee site who was
 assigned to perform personal duties for a Guam official at Government functions. This misuse of a
 member is a violation of AmeriCorps regulations.

 We recommended that the Corporation consider designating the Serve Guam! Commission a high-
 risk grantee, and possibly place a hold on future grant drawdowns.              Our findings and
 recommendations are under review by the Corporation through the audit resolution process.

 Agreed-Upon Procedures of Grants Awarded to Colorado Governor’s Commission on
 Community Service (GCCS)

 We questioned claimed Federal-share costs of $260,021, education awards of $73,660, accrued
 interest awards of $1,694, and administrative fees of $2,017. GCCS and one subgrantee did not
 have controls to ensure that claimed Federal and match costs were adequately supported, compliant
 with applicable regulations, and properly calculated.

 GCCS and three subgrantees claimed unallowable and unsupported costs and its financial
 management systems did not account for costs in accordance with Federal and state requirements.
 Two subgrantees did not comply with AmeriCorps requirements for member criminal background
 checks and National Sex Offender Public Registry (NSOPR) searches. Three GCCS subgrantees
 also did not accurately record all member service hours on timesheets, did not have procedures to
 verify member activities and timesheet accuracy, and data on their member timesheets did not
 always support eligibility for education awards.

Audit Outreach Activity
 The Audit Section continued its wide-ranging efforts to keep the grantee community informed on OIG
 audit activities and systemic concerns impacting our mission of preventing and detecting fraud, waste
 and abuse in Corporation programs. In May 2011, we participated in a four-city tour of Ohio Senior
 Corps Project Sponsor meetings led by the Corporation’s Ohio State Office. This series of meetings,
 conducted in Dayton, Mansfield, Athens, and Akron, was designed to impart information and elicit
 feedback from senior executives of organizations that sponsor and promote volunteer activities in
 each of the three Senior Corps project areas: the Foster Grandparent Program, Senior Companions,
 and the Retired & Senior Volunteer Program. The OIG apprised the groups of common findings and
 ongoing issues identified in recent Senior Corps grant audits. Our presentation included a discussion
 of “red flags” that typically trigger audits and investigations, as well as new compliance requirements
 for properly conducting criminal background checks on program participants.

 In September, we accepted an invitation from the AmeriCorps Program Office to participate in its
 annual State and National Grantee Meeting in Bethesda, MD. An audit manager presented the timely
 topic, “Trends and Areas of Concern”, to approximately 350 grantees from across the country. We
 emphasized the most prevalent recent audit findings, and the emerging concerns that auditors and
 investigators will focus on in future reviews. Attendees proved eager to learn about fraud-related
 topics such as member service timekeeping discrepancies, missing performance evaluations, and
 heightened scrutiny of prohibited member activities.


Draft Management Decisions With Which The OIG Disagreed
 The OIG did not entirely concur with the Corporation’s Draft Management Decisions for the following
 reports:

        Report No. 10-17, Agreed-Upon Procedures of Corporation Funds Awarded to Greater
         Pittsburgh Literacy Council;
        Report No. 11-05, Audit of Corporation for National and Community Service Grants Awarded
         to U.S. Committee for Refugees and Immigrants (USCRI); and


 April 1, 2011 – September 30, 2011                                                               7
Audit Section

        Report No. 11-08, Agreed-Upon Procedures of Corporation Funds Awarded to Prevent Child
         Abuse California and Child Abuse Prevention Council

 Regarding Report No. 11-05 cited above, we questioned claimed Federal-share costs of $35,043 in
 education awards and accrued interest payments related to members’ service under the terms of the
 grant, but funded outside of the grant by the Corporation’s National Service Trust, of $201,432 and
 $8,054, respectively. The Corporation concurred with $35,043 of questioned claimed Federal-share
 costs, $97,985 of questioned education awards, and $1,605 of questioned accrued interest. The
 Corporation’s stated that, for member hour shortages less than 2.5 percent, USCRI will be required to
 reimburse the Trust for education award amounts accessed by the members which exceed the pro-
 rated amount of service actually performed by the members. In these 10 instances, all members
 served in a full-time capacity. This means that members who served at least 1,657.5 of a full term of
 service of 1,700 hours were allowed partial education awards at a pro-rated amount.

 The OIG disagrees with the Corporation’s decision to allow partial education awards for members
 who did not meet the required minimum service hours to receive an education award. We believe
 that USCRI excessively certified education awards for members who did not perform the required
 minimum service hours. Additionally, USCRI was not using timesheets properly, and allowed
 members to input their own service hours into the Corporation’s former Web Based Reporting
 System. Therefore, we believe that the 10 members’ education awards should be disallowed in their
 entirety and not allowed at a pro-rated amount.




 8                                                     April 1, 2011 – September 30, 2011
                                     Investigations Section
                  The Office of Inspector General Investigations Section
                  is responsible for the detection and investigation of
                  fraud, waste and abuse in Corporation for National and
                  Community Service programs and operations. It carries
                  out these responsibilities by investigating allegations of
                  criminal activity involving the Corporation’s employees,
                  contractors,     and    grant   recipients.      Criminal
                  investigations are presented to the U.S. Attorney or, in
                  some cases, the local prosecutor for criminal
                  prosecution and monetary recovery, where the facts
                  uncovered so warrant. Some investigative reports are
                  referred to Corporation management for its
                  administrative action.




April 1, 2011 – September 30, 2011                                     9
                                                               Investigations Section


Investigative Results
 During this reporting period, the OIG Investigations Section opened 23 new cases and closed 24,
 including 17 actions with significant findings. Our efforts resulted in the recovery of more than
 $292,700 in taxpayer funds and the potential recovery of more than $2.5 million from persons and
 programs found to have engaged in fraud, waste, or abuse of Corporation resources.

 Our investigations also resulted in the successful prosecutions of five targets who misused Federal
 grant funds for personal gain. All five plead guilty when confronted with the evidence developed by
 our Special Agents.

 One individual was sentenced to one year of confinement, followed by three years of probation, and
 ordered to pay restitution of more than $85,000. Another individual was sentenced to six weekends
 in jail, home confinement for nine months, five years of probation and was ordered to pay restitution
 of more than $62,000.

 Consisting of an Acting Assistant Inspector General for Investigations, seven Special Agents with full
 Federal Law Enforcement Authority and an investigative assistant, the Investigations Section met the
 challenge of pursuing wrongdoers in Corporation operations that include thousands of grantees and
 sub-grantees in all 50 states and U.S. territories. We were assisted in our work by 29 calls, letters
 and e-mails to our Fraud Hotline and by referrals from Corporation managers, employees and
 program participants.

Significant Cases And Activity
 Corporation Internal Investigations

 Employee Travel Card Use

 During this reporting period, we conducted a proactive review of Corporation employees’ use of the
 Government travel card. We reviewed the transactions of all employees who were more than 60
 days delinquent on their travel card accounts. As a result, we initiated separate investigations into
 three Corporation employees who were found to have also misused their travel cards by using them
 for personal expenses while not on official travel. Two of the employees resigned and the third was
 suspended without pay for 45 days. We also made recommendations to the Corporation that it
 review the transactions of all employees’ accounts delinquent more than 60 days and determine if
 their travel cards were used to make unauthorized purchases. We further recommended the
 Corporation take steps to ensure employees who agree to a repayment plan on their past-due travel
 card debts are actually making the payments. Another recommendation, which has already been
 implemented by the Corporation, was to designate a Corporation employee responsible for
 conducting the reviews of employees’ travel card transactions.

 IT Pornography Review

 We conducted a proactive review of the Corporation’s internal controls to prevent employees from
 accessing child pornography websites. We also sought to determine if any Corporation employees
 had accessed such websites via the Corporation’s information technology resources.              We
 coordinated with several law enforcement experts. They provided search information unique to child
 pornography which we then provided to the Corporation’s Office of Information Technology (OIT) for
 use in updating its internet use monitoring systems. We did not uncover any instances of Corporation
 employees accessing child pornography sites. But we did identify a systemic weakness in the
 reporting by the OIT to the Corporation’s Office of Human Capital (OHC) of incidents of employees
 accessing adult pornography websites with Corporation computers. Based on our recommendation,
 the Corporation enhanced its reporting procedures between OIT and OHC to ensure appropriate
 action is taken on employees who access prohibited adult pornography, as well as internet gambling


 April 1, 2011 – September 30, 2011                                                            11
Investigations Section

 sites. We also recommended that OIT update its website blocking capabilities and bar all known
 pornographic and gambling sites. We believe that blocking these sites would be a proactive step in
 protecting the Corporation from risks, including compromise of its technology systems, legal issues,
 possible financial loss, and damage to the agency’s reputation.

 Portal Breach Review

 Also during this period, we completed our review of the Corporation’s development and
 implementation of the My AmeriCorps Portal (Portal), which is used by persons seeking to join the
 program and by grantees to input data on their members. The review was initiated after we were
 alerted by an individual that he had gained access to the Portal, and potentially sensitive information,
 via a simple Google search. An extensive review disclosed that, between March 25, 2008, and
 August 2, 2010, the Portal had five distinct vulnerabilities that could have allowed users to exceed
 their privilege levels and potentially view data that they were not authorized to access or view. Our
 review was unable to determine if the contractor which developed the Portal, or other vendors,
 provided a substandard product. We were also unable to determine whether the flaws were the result
 of the Corporation’s lack of personnel, expertise, or software to determine if the Portal’s systems had
 been incorrectly developed and coded. As a result of this review, we recommended that the
 Corporation:

         Review the Security Assessment Report and Code Review Report provided by its contractor
          and ensure the identified Portal vulnerabilities have been corrected;
         See to it that, on future similar projects, software is tested for code errors and vulnerabilities
          before a system is deployed. If the Corporation lacks the needed expertise, it should use a
          qualified contractor; and
         Ensure proper computer program patch management procedures are in place and adhered
          to.

 Significant Cases

 Grant Billing Abuse

 We identified an AmeriCorps program in California that was operating five grants. During the grant
 years between 2004 and 2007, the program officials assigned several AmeriCorps members to one
 AmeriCorps program while billing another grant for their service, resulting in a loss of more than
 $258,000 in Federal program funds. We also determined that program officials awarded pro-rated
 education awards to 18 ineligible former AmeriCorps members who had cited unallowable compelling
 personal circumstances for their early departures from service. This resulted in a loss to the
 Government of more than $65,000. As a result of our investigation, California Volunteers recovered
 more than $258,000 from the grantee. The Corporation also issued a demand for payment letter to
 the grantee for more than $38,000 and placed more than $18,000 into a potential debt category to
 cover the education awards.

 FGP Embezzlement

 We found that the program coordinator of a Foster Grandparent Program (FGP) in Georgia
 embezzled more than $85,000 in Federal program funds from June 2005 through August 2008. As a
 result of our investigation, the individual plead guilty and was sentenced to one year in prison,
 followed by three years of probation, and was ordered to pay full restitution The individual was also
 debarred from participation in all Federal government contracts and grants for three years.

 Idaho FGP Embezzlers

 Our Special Agents found that two officials of a FGP in Idaho collectively embezzled over $69,000 in
 Federal program funds by issuing themselves additional payroll checks and bonuses and using the
 program’s credit card to make personal purchases. The two individuals plead guilty. One was


 12                                                       April 1, 2011 – September 30, 2011
                                                               Investigations Section

 sentenced to six weekends in prison, home detention for nine months followed by five years of
 probation, and was ordered to pay restitution of more than $62,000. The second individual was
 sentenced to home detention for 90 days, followed by five years of probation, and ordered to pay
 restitution of more than $13,000. This matter has been referred to the Corporation’s Suspension and
 Debarment Official to consider debarring the two individuals.

 Credit Card Embezzler

 A former manager of a Senior Companion Program in Kansas was found to have embezzled more
 than $28,000 of Federal program funds by using the program’s debit card to withdraw cash for her
 personal use. The individual plead guilty and was sentenced to home detention for six months,
 followed by three years on probation and was ordered to pay restitution of more than $28,000. This
 matter has been referred to the Corporation’s Suspension and Debarment Official to consider
 debarring the individual.

 Investigative Recommendations Pending from Previous Reporting Periods

 Missing Funds Case

 We found an executive director of an AmeriCorps program, which was awarded more than $2 million
 in Federal program funds through both State and National grants during the period September 2005
 and October 2008, could not account for more than $950,000 of those funds. This matter was
 referred to the Department of Justice (DOJ) on January 22, 2010. The Criminal Division declined
 prosecution due to the insufficiency of evidence and the availability of civil or administrative
 alternatives. The DOJ Civil Division declined to take action based on the fact the neither the
 executive director nor the organization had assets sufficient to satisfy a judgment at any level. On
 January 4, 2011, we referred this matter to the Corporation for administrative action and are awaiting
 its action.

 Criminal Background, Sex Offender Checks

 In another action, we found that program officials at an AmeriCorps program in Georgia failed to
 provide proper eligibility forms and National Sex Offender Public Website or State criminal registry
 checks prior to enrolling and deploying their AmeriCorps members. The questioned costs for
 education awards given to these ineligible members totaled more than $59,000. On January 24,
 2011, we referred this matter to the Corporation and are awaiting its action.


Management Decision With Which the OIG Disagreed
 False Financial Reporting by Grantee

 Our investigation found that executive director of an AmeriCorps program in Rhode Island submitted
 false monthly financial reports to the Serve Rhode Island commission in order to receive illicit
 reimbursement of program expenses for member health insurance. AmeriCorps programs are
 required by Corporation rules to provide members with health insurance coverage. The Rhode Island
 program agreed to pay the monthly insurance premiums for such coverage from its federally required
 local matching share of funds. The commission reported, and the OIG confirmed, that the
 AmeriCorps program’s monthly financial reports to the commission falsely claimed it had paid more
 than $17,500 from its local matching share of funds for the member health insurance premiums.

 The now-former executive director admitted that the premiums were never paid from June 2009 to
 April 2010, and that the entries she certified in the monthly financial reports to the commission were
 false. She also admitted that the program had been unable to raise any of the required $46,588 in
 local matching funds it had indicated in the program’s grant application. As a result of this false



 April 1, 2011 – September 30, 2011                                                            13
Investigations Section

 reporting, the program drew down more than $135,000 in Recovery Act grant funds to which it was
 not entitled.
 We referred this matter to the U.S. Department of Justice, which declined to prosecute based on the
 low-dollar amount and the fact the Corporation had administrative remedies at its disposal.

 The OIG referred this matter to the Corporation as actionable under the Corporation’s Program Fraud
 Civil Remedies Act regulation, as well as its debarment and suspension regulation. After having
 received no notification of action taken for nearly a year, the OIG resubmitted the referral to the
 Corporation on May 26, 2011, this time suggesting that the Corporation act to hold the program
 accountable pursuant to its Anti-Fraud Policy.

 The Corporation responded and informed the OIG that the Corporation would take no action against
 the program because: 1) the monthly financial report submitted by the program to the State
 commission “does not implement a general Federal or Corporation specific requirement” and was
 therefore not “material” to whether Federal matching funds should be paid; 2) the local match
 requirement is evaluated by the Corporation only “at the end of the grantee’s performance” and the
 Corporation “would not have relied upon” the monthly financial reports in considering whether the
 program should be paid matching funds; and 3) according to the Corporation, the State commission
 informed the Corporation it would not have denied the drawdown of Federal funds based on the false
 monthly financial report because “the amount requested . . . was supported by appropriate actual
 expenditures,” and, that while the reported payment of insurance premiums was “high,” the reported
 payment of staff salaries which “was correspondingly low.”

 The OIG disagrees with the Corporation’s decision to take no action against the program or the
 former executive director and finds its’ reasoning for justifying this decision is inconsistent with both
 law and fact. We believe that the Corporation’s failure to take action sends the wrong message to its’
 grant programs as to how seriously it takes its’ responsibility for ensuring the proper use of Federal
 funds.

                                                                  S u m m a ry O f C a se s
         O p e n e d a n d C lo s e d
         C a s e s O p e n a t B e g in n in g o f R e p o r t in g P e r io d                                                                       34

         N e w C a s e s O p e ne d                                                                                                                  23

         C a s e s C lo s e d t h is P e r io d W it h S ig n if ic a n t F in d in g s                                                              17

         C a s e s C lo s e d t h is P e r io d W it h N o S ig n if ic a n t F in d in g s                                                          7

         T o t a l C a s e s C lo s e d                                                                                                              24

         C a s e s O p e n a t E n d o f R e p o r t in g P e r io d                                                                                 33

         R e fe rre d

         C a s e s R e f e r r e d f o r P r o s e c u t io n                                                                                        3

         C a s e s A c c e p t e d f o r P r o s e c u t io n                                                                                        0

         C a s e s D e c lin e d f o r P r o s e c u t io n                                                                                          4*

         C a s e s P e n d in g P r o s e c u t o r ia l R e v ie w                                                                                  2*

         C a s e s P e n d in g A d ju d ic a t io n                                                                                                 4

         R e c o m m e n d a tio n s to M a n a g e m e n t

         I n v e s t ig a t iv e R e c o m m e n d a t io n s R e f e r r e d t o M a n a g e m e n t                                                14


         I n v e s t ig a t iv e R e c o m m e n d a t io n s P e n d in g t h is R e p o r t in g P e r io d                                        10


         I n v e s t ig a t iv e R e c o m m e n d a t io n s P e n d in g f r o m P r e v io u s R e p o r t in g P e r io d s                      2


         * T h is in c lu d e s c a s e s r e f e r r e d f o r p r o s e c u t io n d u r in g t h e p r e v io u s r e p o r t in g p e r io d .




 14                                                                                               April 1, 2011 – September 30, 2011
                          Review Of Legislation And
                                       Regulations
                  Section 4(a) of the Inspector General Act directs the
                  Office of Inspector General to review and make
                  recommendations about existing and proposed
                  legislation and regulations relating to the Corporation’s
                  programs and operations. The OIG reviews legislation
                  and regulations to determine its impact on the cost and
                  efficiency of the Corporation’s administration of its
                  programs and operations. It also reviews and makes
                  recommendations on the impact that legislation and
                  regulations may have on efforts to prevent and detect
                  fraud, waste and abuse.        The OIG draws on its
                  experience in audits and investigations as the basis for
                  its recommendations.




April 1, 2011 – September 30, 2011                                   15
                                  Review Of Legislation And Regulations


Criminal Background Checks
 On July 6, 2011, the Corporation published in the Federal Register for public comment proposed
 revisions to its’ current criminal background check rules for Corporation grantees. The proposed
 changes make several amendments to the original rule issued in 2009 at 45 C.F.R § 2540, and are
 intended to implement sections of the Serve America Act of 2009 (SAA), which went into effect on
 April 21, 2011. Those sections require that individuals over the age of 18 who will have “recurring
 access to vulnerable populations” undergo not only the current name-based statewide criminal history
 check and check of the sex offender registry, but a FBI fingerprint-based check as well. “Vulnerable
 populations” are defined by the SAA as individuals 60 years or older, children 17 years of age or
 younger, and those with disabilities. “Recurring access” is defined by the rules as an “ability on more
 than one occasion to approach, observe, or communicate with an individual, through physical
 proximity or other means.”

 The OIG reviewed the proposed rule prior to its publication in the Federal Register and provided the
 Corporation with several comments and suggestions for revisions in the draft preamble and regulation
 based on our reading of the SAA. We took issue with guidance in the proposed preamble and draft
 regulation which addressed what documentation a grantee must maintain to demonstrate that a
 check had been performed. Specifically, we cited preamble language which stated that “it is not
 necessary to retain the actual documents produced as a result of conducting the statewide or FBI
 criminal registry search,” and “it is sufficient to retain a summary of the results . . . .” There is no such
 limitation or directive in the SAA, and so we submitted that, absent an overriding state law, there did
 not appear to be any reason why grantees ought not to maintain the actual records of the FBI or state
 criminal registry checks as proof of the validity of the checks, and suggested that the guidance be
 removed from the preamble.

 The Corporation also gave guidance in the draft preamble that, when access to vulnerable
 populations by Corporation-funded individuals rises from merely “episodic,” which the rule exempts
 from an FBI check, to “unexpectedly regular and frequent,” then the program “may want to take
 additional precautionary measures.” We suggested that if access changed from “episodic” to “regular
 and frequent,” the Corporation direct that checks must be performed.

 The Corporation declined to act on our suggested comments, and published the proposed rule in the
 state we had reviewed it. Publication of the rule as final is anticipated in the next several months.




 April 1, 2011 – September 30, 2011                                                                   17
                                            Statistical And
                                          Summary Tables
                  The statistical and summary tables in this section are
                  submitted in compliance with the requirements
                  enumerated in the Inspector General Act.




April 1, 2011 – September 30, 2011                                 19
                                                                                        Tables


I. Inspector General Act Reporting Requirements
 This table cross-references the reporting requirements prescribed by the Inspector General Act of
 1978, as amended, to the specific pages in the report where they are addressed.



     Section                               Requirement                                 Page
      4 (a)(2)     Review of legislation and regulations                                15

      5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                   administration of Corporation programs and operations

      5 (a)(2)     Recommendations with respect to significant problems, abuses
                   and deficiencies found in the administration of Corporation       Throughout
                   programs and operations

      5 (a)(3)     Prior significant recommendations on which corrective action         25
                   has not been completed
      5 (a)(4)     Matters referred to prosecutorial authorities                        14

      5 (a)(5)     Summary of instances where information was refused                None this
                                                                                      period
      5 (a)(6)     List of audit reports by subject matter showing dollar value of      19
                   questioned costs, unsupported costs and the dollar value of
                   recommendations that funds be put to better use

      5 (a)(7)     Summary of significant reports                                    Throughout

      5 (a)(8)     Statistical table showing number of reports and dollar value of      23
                   questioned costs

      5 (a)(9)     Statistical table showing number of reports and dollar value of      24
                   recommendations that funds be put to better use

      5 (a)(10)    Summary of each audit issued before this reporting period for        25
                   which no management decision was made by end of reporting
                   period

      5 (a)(11)    Significant revised management decisions                          None this
                                                                                      period

      5 (a)(12)    Significant management decisions with which the Inspector           7 & 13
                   General disagrees




 April 1, 2011 – September 30, 2011                                                             21
Tables


II.             Audit List

                                                  April 1, 2011-September 30, 2011
       Report                                                                Dollars            Dollars          Funds Put To
                                       Report Name
       Number                                                               Questioned       Unsupported           Better Use
                                                                                            (Dollars in thousands)
        11-08    Agreed-Upon Procedures for Corporation Grants                        $13                $5                $24
                 Awarded to the Child Abuse Prevention Council of
                 Sacramento, Inc. & Prevent Child Abuse California

        11-09    Agreed-Upon Procedures of Corporation for National and               $21               $20                 $0
                 Community Service Grants Awarded to the Connecticut
                 Commission on Community Service

        11-10    Audit of Financial Management Systems of American                     $9                $0                 $0
                 Recovery and Reinvestment Act Grantees

        11-11    Audit of Corporation for National and Community Service              $67                $0                $33
                 Grants Awarded to the New York City Office of the Mayor
                 (NYC Mayor's Office)

        11-12    Audit of National Civilian Community Corps (NCCC)                     $0                $0                 $0
                 Leases

        11-13    Audit of the Volunteers in Service to America (VISTA)                 $0                $0                 $0
                 Budget Formulation and Execution Processes

        11-14    Agreed-Upon Procedures of Corporation for National and               $53               $15                $70
                 Community Service Grants Awarded to the Virginia Office
                 on Volunteerism and Community Service

        11-15    Agreed-Upon Procedures for Corporation for National and              $68               $37                $14
                 Community Service Grants Awarded to Commonwealth of
                 Northern Mariana Islands Public School System


        11-16    Agreed-Upon Procedures for Corporation for National and              $72               $37                $40
                 Community Service Grants Awarded to Serve Guam!
                 Commission

        11-17    OIG Evaluation of the 2010 Social Innovation Fund Grant               $0                $0                 $0
                 Application Review Process

        11-18    Agreed-Upon Procedures for Corporation for National and              $3                 $0                 $5
                 Community Service Grants Awarded to Alabama
                 Governor's Office of Faith-Based and Community
                 Initiatives

        11-19    Evaluation of Corporation Grants Awarded to George B.                $0                 $0                 $0
                 Thomas Sr. Learning Academy (GBTLA)

        11-20    Agreed-Upon Procedures for Corporation for National and             $262              $107                $75
                 Community Service Grants Awarded to Colorado
                 Governor's Commission on Community Service

        11-21    Audit of Corporation for National and Community Service             $36                 $0                $13
                 Grants Awarded to the Town of West Seneca & Western
                 New York AmeriCorps

                                          TOTAL                                      $604              $221               $275 *

      *Total is rounded up by $1.




  22                                                                     April 1, 2011 – September 30, 2011
                                                                                     Tables


III.       Reports With Questioned Costs


                                                                 Federal Costs

                 Report Category                   Number Questioned          Unsupported
                                                                  (Dollars in thousands)
   A. Reports for which no management decision       4           $581                       $45
      had been made by the commencement of the
      reporting period

   B. Reports issued during the reporting period     10          $604                      $221

   C. Total Reports (A + B)                          14        $1,185                      $266

   D. Reports for which a management decision        3           $273                           $5
      was made during the reporting period

       I. Value of disallowed costs                              $161                           $0

       II. Value of costs not disallowed                         $112                           $5

   E. Reports for which no management decision       11          $912                      $261
      had been made at the end of the reporting
      period (C minus D)

   F. Reports with questioned costs for which no     1           $10                            $0
      management decision or proposed
      management decision was made within six
      months of issuance




  April 1, 2011 – September 30, 2011                                                       23
Tables


IV.         Reports With Recommendations That Funds
            Be Put To Better Use

                    Report Category                   Number        Dollar Value
                                                               (Dollars in thousands)
      A. Reports for which no management decision       4               $439
         had been made by the commencement of
         the reporting period

      B. Reports issued during the reporting period     8               $275
      C. Total Reports (A+B)                            12              $714
      D. Reports for which a management decision        3               $367
         was made during the reporting period
         i. Value of recommendations agreed to by                       $164
         management
         ii. Value of recommendations not agreed to                     $203
         by management

      E. Reports for which no management decision       9               $347
         had been made by the end of the reporting
         period
      F. Reports with recommendations that funds        1               $18
         be put to better use for which no
         management decision or proposed
         management decision was made within six
         months of issuance




 24                                                    April 1, 2011 – September 30, 2011
                                                                                                        Tables


V.            Summary Of Audits With Overdue Management Decisions



                                                                               Mgmt.          Status at End of
     Report                                           Federal Dollars         Decision        Reporting Period
     Number                   Title                    Questioned               Due              (09/30/11)
                                                     (Dollars in thousands)


               Agreed-Upon Procedures for                                                 The OIG had not received the
      11-07                                                $10,430            9/13/2011
               Corporation Grants Awarded to Serve                                        management decision.
               Alaska

                              Total                         $10,430




VI.           Reports Described In Prior Semiannual Reports
              Without Final Action



      Report                                                                   Date            Final
      Number                                 Title                            Issued        Action Due

                                                     None




 April 1, 2011 – September 30, 2011                                                                            25
Tables

VII.   Peer Reviews
  During this reporting period, the OIG Investigations Section conducted a peer review of the
  Investigations Section of the Office of Inspector General, United States Agency for International
  Development (OIG-USAID). Our review was conducted in conformity with the Council of Inspectors
  General on Integrity and Efficiency (CIGIE) Quality Standards for Investigations, the CIGIE Quality
  Assessment Review guidelines, and the Attorney General’s Guidelines for Offices of Inspectors
  General with Statutory Law Enforcement Authority, as applicable.

  In our opinion, the system of internal safeguards and management procedures for the investigative
  function of the OIG-USAID, in effect during our April 2011 review, is in compliance with the quality
  standards established by CIGIE and the Attorney General guidelines. These safeguards and
  procedures provide reasonable assurance of conforming with professional standards in the conduct
  of its investigations.

  Our Investigations Section’s most recent Peer Review Report was issued on August 18, 2009, by the
  Railroad Retirement Board OIG (RRB-OIG). It stated: “The system of internal safeguards and
  management procedures for the investigative function of the CNCS OIG in effect for the year ended
  May 2009, is in full compliance with the quality standards of the PCIE and the Attorney General
  Guidelines. The safeguards and procedures provide reasonable assurance that the CNCS OIG is
  conforming to professional standards in the conduct of its investigations.” The section’s next peer
  review is scheduled for the first quarter of FY 2012 and is to be conducted by the Department of
  Commerce OIG.

  The Audit Section’s most recent Peer Review Report was issued on March 19, 2010, by the Nuclear
  Regulatory Commission OIG. It stated: “In our opinion, the system for quality control for the audit
  organization of CNCS OIG in effect for the year ended September 30, 2009, has been suitably
  designed and complied with to provide CNCS OIG with reasonable assurance of performing and
  reporting and conforming to professional standards in all material aspects.           Federal audit
  organizations can receive a rating of pass; pass with deficiencies, or fail. CNCS OIG has received a
  peer review rating of pass.” The Section’s next peer review will be conducted in FY 2013 by the
  Smithsonian Institution OIG.


VIII. Plain Writing Act

  During this reporting period, the OIG completed implementation of the Plain Writing Act of 2010,
  which was signed into law by President Obama on October 13, 2010.                      The Director of
  Communications, who is coordinating our efforts, including annual training for all OIG employees, has
  been designated as our representative to the Plain Language Action and Information Network
  working group. In addition, we created a Plain Writing page on our website (www.cncsoig.gov) that
  includes links to training materials. All OIG documents and reports, including information available on
  our website, are reviewed for clarity, conciseness, organization, and overall readability.




  26                                                     April 1, 2011 – September 30, 2011
                                     Fiscal Year 2011
                             Performance Information
                  The section summarizes the Office of Inspector
                  General’s accomplishments and performance measures
                  in support of OIG strategic goals and provides a
                  comparison to previous reporting periods.




April 1, 2011 – September 30, 2011                             27
                                                           Performance Information


                      Quantitative Audit Performance Information

                                           2006      2007      2008      2009       2010      2011
Number of reports issued                    40        20        23        19         19        21

Number of reports issued linked to          12         7         7         7         5          8
improving Corporation management (OIG
Goal One)

Number of recommendations linked to        139        24        22        51         13        26
improving Corporation management (OIG
Goal One)

Number of reports issued linked to          30        16        16        12         15        13
protecting the integrity of Corporation
programs, operations, and financial
management (OIG Goal One)

Number of recommendations linked to        179       164       194        126       199        187
protecting the integrity of Corporation
programs, operations, and financial
management (OIG Goal One)

Total number of audit recommendations      316       182       216        176       212        213

Percent of recommendations accepted by    100%       92%       93%       86%        96%       83%
the Corporation




Strategic Goals

The Office of Inspector General’s strategic goals, adopted for FYs 2010-2015, are designed to
promote economy, efficiency and effectiveness, and to prevent and detect fraud, waste and abuse in
Corporation programs and operations. The general purpose of these goals is to improve the
Corporation’s ability to meet its responsibilities and performance goals. To achieve its strategic
goals, the OIG must possess the strategic vision, leadership, and resources required for effective and
proactive oversight.

Goal One: Reduce program vulnerabilities, strengthen program integrity and Corporation efforts to
efficiently manage its programs and implement effective internal controls. We will do this by providing
timely and independent information to the agency’s Board of Directors, Chief Executive Officer, senior
management, and Congress regarding Corporation programs and operations.

Goal Two: Look ahead, anticipate change, stay flexible, and be prepared to meet new challenges.

Goal Three: Make public the results of our reviews, to the extent allowable by law and privacy
considerations, through a robust OIG website and social media tools; and look for ways to operate in
an environmentally conscious or “green” manner.




April 1, 2011 – September 30, 2011                                                             29
Performance Information


                          Investigations Performance Information
              Fiscal Year                FY 2007        FY 2008        FY 2009        FY 2010       FY 2011
     Investigative actions opened           62             41             40             39            42


     Investigative actions resolved         55             51             43             46            35
     and closed


     Average monthly caseload               44             38             32             32            34


     Investigative matters resolved         54             68             40             45            39
     without opening a separate
     investigative action


     Referrals for prosecution              16              8              3             9              8

                                2        $838,569      $947,540      $1,317,227      $634,803       $447,854
     Investigative recoveries

                    3                    $418,900       $81,731       $300,000      $1,218,178     $1,666,294
     Cost avoidance


     Administrative or management           35             29             16             20            14
     action taken


 2
   Includes money received by the Corporation or other government agencies as a result of OIG
 investigations, including joint investigations with another OIG, Federal, or State investigative element.
 3
  When OIG investigative action identifies a systemic practice that has subsequently been stopped or
 modified due to some type of OIG investigative interdiction, any clear and unmistakable savings to the
 Corporation are reported as cost avoidance.




 30                                                       April 1, 2011 – September 30, 2011
         CORPORATION FOR NATIONAL AND
              COMMUNITY SERVICE

 OFFICE OF INSPECTOR GENERAL

                           Hotline

                                    We Want You to
                                    Report Fraud, Waste
                                    and Abuse!




                       All information is confidential.

                       You may remain anonymous.


            1-800-452-8210
Contact us by e-mail:                                Visit our web page:
hotline@cncsoig.gov                                   www.cncsoig.gov


                                Or write:

                          OIG HOTLINE
Corporation for National and Community Service
     1201 New York Avenue NW, Suite 830
             Washington, DC 20525
